                          Review of New York State Higher
                          Education Services Corporation’s
                                Year 2000 Readiness




               MANAGEMENT INFORMATION REPORT




                              Control Number ED-OIG/A05-90044
                                        October 1999




Our mission is to promote the efficient            U.S. Department of Education
and effective use of taxpayer dollars              Office of Inspector General
in support of American education                   Chicago, Illinois
                              NOTICE

Statements that management practices need improvement, as well as other
 conclusions and recommendations in this report, represent the opinions of
 the Office of Inspector General. Determination of corrective action to be
 taken will be made by appropriate Department of Education officials. In
 accordance with the Freedom of Information Act (5 U.S.C. §522), reports
  issued by the Office of Inspector General are available, if requested, to
members of the press and general public to the extent information contained
                therein is not subject to exemptions in the Act.
                             UNITED STATES DEPARTMENT OF EDUCATION

                                                 OFFICE OF INSPECTOR GENERAL

                                                                                                                   THE INSPECTOR




MEMORANDUM


 TO:           Greg Woods
               Chief Operating Officer




 FROM:         Lorraine Lewis,

SUBJECT: Review of New York State Higher Education Services Corporation's Year 2000



Attached is our Management Information Report that informs you of the results of our review of
New York State Higher Education Services Corporation's (Corporation) Year 2000 readiness.
Management Information Reports are intended to provide information for decision makers and are
not audit or investigative reports. Our objectives were to ensure that the Corporation: (1) has
developed adequate management plans to achieve Year 2000 compliance for its own computer
systems and for those of its information or data interface partners, and (2) is monitoring



Our review indicates that the Corporation is making satisfactory progress in its Year 2000 efforts.
We believe the Corporation's efforts are satisfactory because it exhibits acceptable performance in
all key phases of the Year 2000 project management process with the following minor exceptions.
The Corporation needs to ensure that it: (1) addresses a potential problem associated with its use
of the year '10' for windowing in the Debt Management Collection System, (2) completes
independent verification and validation testing, and (3) addresses backup computing capability in its
contingency plan. These exceptions are not yet significant, but the Guarantor and Lender Oversight




                                         400 MARYLAND AVE., S.W. WASHINGTON, D.C.
            Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation.
In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office of
Inspector General are available, if requested, to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act. Copies of this report have been


 If you have any questions concerning this report, please call Richard J. Dowd, Regional



 Attachme
Table of Contents
Review of New York State Higher Education Services Corporation's
Year 2000 Readiness
Control Number ED-OIG/A05-90044


Executive Summary                                                  1


On-Site Review Observations                                        3

Evaluation of Testing                                              7

Evaluation of Contingency Planning                                 8

Risk Analysis                                                      9

Conclusion and Recommendation                                      11

Appendix

     Background                                                    1

     Objectives, Scope, and Methodology                            1
ED-OIG Management Information Report CN ED-OIG/A05-90044
Review of New York State Higher Education Services Corporation's Year 2000 Readiness



                             Executive Summary
Corporation                  Our evaluation indicated that the New York State Higher Education
Making                       Services Corporation (Corporation) is making satisfactory progress in
Satisfactory                 its Year 2000 readiness efforts. The Corporation exhibits acceptable
Progress With                performance in all key phases of the Year 2000 project management
                             process. However, the U.S. Department of Education (ED) Guarantor
Minor Exceptions
                             and Lender Oversight Service (GLOS) should monitor the Corporation
                             to ensure that it: (1) addresses a potential problem associated with its
                             use of the year '10' for windowing in the Debt Management Collection
                             System (DMCS), (2) completes independent verification and validation
                             testing, and (3) addresses backup computing capability in its
                             contingency plan.

DMCS Potential               The Corporation determined that its current DMCS is Year 2000
Windowing                    compliant. However, the Corporation’s renovation of the DMCS used
Problem                      '10' for windowing, which could cause minor errors in early 2000 if it
                             projects a date 10 years into the future. The Corporation has
                             contracted for a new DMCS system that it will implement in January or
                             February 2000. Corporation officials agreed to look into the
                             windowing issue because it is a potential problem if the new system
                             encounters serious delays. We informed the Corporation officials that if
                             the new system is not ready, they should determine a “failure date,”
                             which is a date when the windowing will no longer function as intended.

No Independent               In addition, the Corporation has not completed independent verification
Verification and             and validation testing. The Corporation has sent out a Request for
Validation Testing           Proposal and received 23 responses. A Corporation official indicated
                             that it was evaluating the responses and that the independent verification
                             and validation testing is planned. The lack of independent testing is
                             mitigated because the Corporation had independent contractors
                             perform modifications to the Guaranteed Loan System and DMCS
                             while the Corporation assigned the Data Processing staff to oversee
                             and monitor the project. In addition, the Corporation staff performed
                             user acceptance testing.

Contingency Plan             While the Corporation has completed most of the contingency plan, it
Lacks Backup                 has not established a plan for a backup computer to run its applications
Computer                     should the current mainframe fail. A Corporation official informed us
                             that the State of New York has control over the system and is in the
                             process of consolidating its data centers. Until the State makes


                                             Page 1
ED-OIG Management Information Report CN ED-OIG/A05-90044
Review of New York State Higher Education Services Corporation's Year 2000 Readiness

                             decisions regarding the consolidation, the Corporation cannot move
                             forward and finalize its contingency plans.

ED's                         ED has a responsibility to ensure that all of its computer systems and
Responsibility               the interfaces between them and the systems of its trading partners are
                             ready to handle data that includes dates both before and after January
                             1, 2000. ED has issued various publications to reinforce the
                             seriousness of Year 2000 compliance and the critical milestone dates
                             for each of the five phases set forth by the Office of Management and
                             Budget and the General Accounting Office. The designated phases for
                             a Year 2000 readiness plan are awareness, assessment, renovation,
                             validation, and implementation (with ongoing contingency planning
                             throughout the entire project).

Scope of Review              We conducted on-site field work at the Corporation in Albany, New
                             York from June 15 - 22, 1999. On August 10, 1999, we updated
                             certain information. We examined the Corporation’s supporting
                             documentation and interviewed personnel to determine progress on the
                             five phases of the Year 2000 project. Our evaluation disclosed that the
                             Corporation has completed all phases of its Year 2000 readiness
                             efforts with the exception of the issues discussed above. This
                             Management Information Report is intended to provide information for
                             decision makers and is not an audit or investigative report.




                                             Page 2
ED-OIG Management Information Report CN ED-OIG/A05-90044
Review of New York State Higher Education Services Corporation's Year 2000 Readiness


                        On-Site Review Observations
Management                  The Corporation was founded in 1975 to work with the higher
Approach                    education and financial services communities to expand educational
                            opportunities for students. It is the largest state guarantor in the Federal
                            Family Education Loan (FFEL) Program, making over $1.6 billion in
                            higher education funding available to students each year. To become
                            Year 2000 ready, the Corporation used guidelines from three sources to
                            prepare a comprehensive overall planning document. These three
                            sources were: (1) ED, (2) the New York State Banking Department,
                            and (3) the State of New York’s Office for Technology. The
                            Corporation outsourced about 80 percent of its Year 2000 efforts to
                            several contractors.

Year 2000 is a              On July 2, 1997, Governor George Pataki directed that New York
Priority for New York       State’s number one technology priority was Year 2000 compliance. In
                            New York State, the Office for Technology is charged with the
                            responsibility of coordinating a statewide policy addressing Year 2000
                            issues. Within this framework, the Office for Technology established the
                            “Top 40” priority systems. While the Corporation did not have any of
                            its systems in the “Top 40,” it did have three systems listed as “High
                            Priority.” These systems are the Guaranteed Loan System (Loan
                            System), Debt Management Collection System (DMCS), and Grants
                            and Scholarships System (G&S). The systems are run on a Year 2000
                            compliant IBM mainframe.

Management                  The Corporation uses the Loan System to approve and monitor
Information Systems         guaranteed loans. GuaranTec, Inc. owns the DMCS, the backbone of
                            the Corporation’s collection efforts, which is used to track and service
                            defaulted student loans. GuaranTec maintains the DMCS and enhances
                            it through the use of task orders. The Corporation uses the G&S to
                            administer New York State’s Tuition Assistance Program and various
                            other State scholarships. It renovated and moved the three systems
                            (Loan, DMCS, and G&S) into production on March 29, 1999, March
                            22, 1999, and May 3, 1999, respectively. The Corporation also has
                            Program Access to HESC (PATH), a non-critical system, which is a PC
                            software product developed by the Corporation to assist schools and
                            lenders with processing of proprietary and Common Line record
                            layouts. Changes to the PATH were implemented on March 29, 1999,
                            in coordination with the Loan and G&S systems. For purposes of this
                            review, we focused primarily on the Loan System and DMCS because



                                              Page 3
ED-OIG Management Information Report CN ED-OIG/A05-90044
Review of New York State Higher Education Services Corporation's Year 2000 Readiness

                            they are critical systems related to Federal programs. We performed
                            minimal review work on the PATH and G&S systems.

System Prioritization       The Office for Technology determined that the Corporation’s three
                            systems (Loan, DMCS, and G&S) were not in the State’s “Top 40” for
                            priority but rather were “High Priority” mission critical systems. The
                            Office for Technology required each agency with a priority system to
                            analyze the impact of Year 2000 on these systems and prepare plans for
                            bringing them into compliance. Staffing resources, costs, and schedules
                            had to be identified, monitored, and reported to the Office for
                            Technology quarterly.

                            The Corporation prepared an overall Year 2000 strategy that gained
                            executive level support and sponsorship as part of its awareness
                            campaign. A Management Information Systems Steering Committee
                            was formed and the Corporation reports its Year 2000 status to the
                            Board of Trustees. The Corporation sends quarterly reports to the
                            Office for Technology, which has overall responsibility for the State’s
                            Year 2000 effort and serves as the focal point for the compliance work.
                            The State demonstrated its commitment to ensure that agencies had
                            sufficient funds available to get their systems compliant.

                            The Office for Technology requested that each agency prepare a Year
                            2000 Risk Assessment to evaluate each agency’s potential for becoming
                            Year 2000 compliant. It identified the agency’s most critical business
                            areas and related liabilities if these areas are not brought into
                            compliance. The criteria for prioritizing the business areas were an
                            agency's decision based on issues such as client welfare and receipt of
                            Federal money. The Assessment also served to scope the Year 2000
                            problem on a statewide basis in terms of breadth and complexity for
                            senior management.

                            The Corporation performed a risk assessment that identified core
                            business areas. It inventoried and analyzed the core processes and
                            prioritized them. The risk assessment provided a schedule of phases by
                            identifying due dates for process compliance. The risk assessment also
                            noted which processes have an effect on the FFEL Program, other
                            agency systems, data exchange partners, and if they are mission critical.
                            Our review of the risk assessment disclosed that it is reasonable and
                            complete.




                                             Page 4
ED-OIG Management Information Report CN ED-OIG/A05-90044
Review of New York State Higher Education Services Corporation's Year 2000 Readiness

Technical                   Each of the Corporation’s three high priority systems represented unique
Approach                    considerations with respect to Year 2000 compliance. Therefore, the
                            Corporation tailored its approach to achieving full compliance to meet
                            the requirements of the diverse environments. The Corporation
                            contracted out most of its Year 2000 compliance efforts to several
                            contractors. From a systems standpoint, we segregated the
                            Corporation’s Year 2000 compliance project into the following six
                            areas: (1) Loan System, (2) DMCS, (3) PATH, (4) G&S, (5) personal
                            computers, and (6) embedded chips. We also considered data
                            exchange, which is a crosscutting issue. We performed only a limited
                            review of the PATH because it is a non-critical system. We also
                            performed only a limited review of the G&S because it is not related to
                            Federal programs.

The Loan System             The Corporation contracted with ObjectWare to bring its Loan System
                            into full Year 2000 compliance. The Loan System was migrated to an
                            IBM mainframe, which is Year 2000 compliant. The Corporation
                            completed the migration on February 18, 1998. As part of migrating the
                            Active Loans database, the Corporation expanded year fields to four
                            digits. The Year 2000 changes were largely for internal processing
                            dates.

                            The Corporation required ObjectWare to perform the following
                            functions to bring the Loan System into full compliance:

                            •      Identify all date fields.
                            •      Expand date fields where necessary.
                            •      Identify all common date manipulation routines and modify them
                                   to correctly process dates of any format.
                            •      Ensure all programming code that manipulates dates correctly
                                   utilizes the common date macros.
                            •      Locate and correct date routines.
                            •      Add the century to date fields on all Electronic Financial Aid
                                   Network layouts.
                            •      Review and expand, where necessary, all date fields in working
                                   storage or on internal layouts.
                            •      Fully test the system for current and future dates.

                            To ensure full compliance prior to the production date of March 29,
                            1999, all work related to Year 2000 compliance was completed, tested,
                            and turned over to the Corporation for user acceptance testing.

DMCS                        The Corporation contracted with GuaranTec to bring its current DMCS

                                             Page 5
ED-OIG Management Information Report CN ED-OIG/A05-90044
Review of New York State Higher Education Services Corporation's Year 2000 Readiness

                            into full Year 2000 compliance. The current DMCS required minimal
                            changes to become compliant. GuaranTec is in the process of
                            developing a new DMCS, which will be implemented in January or
                            February 2000.

                            Most of the current DMCS was already Year 2000 compliant because
                            the database and most input screens already used four-digit years. The
                            Corporation employed a windowing algorithm in the conversion program
                            to make the system compliant. That is, if the year is greater than '10',
                            the century will be '19', or else it will be '20'. GuaranTec conducted
                            unit, aging, regression, and volume testing on each module changed to
                            determine if it is calculating dates properly and functioning similar to the
                            original module.

Personal Computers          The Corporation contracted with Digital Equipment Corporation for an
                            inventory of all PC hardware and software to verify Year 2000
                            compliance. The Corporation obtained Year 2000 compliance vendor
                            certifications for software and any non-compliant software will be
                            upgraded. The Corporation found a minimal amount of hardware with
                            internal operating system type problems that were not Year 2000
                            compliant and it will retire most of that hardware by the end of the year.

Embedded Chip               The Corporation staff, in conjunction with the Office for Technology and
                            New York State’s Office of General Services, addressed embedded
                            chip issues that could affect the Corporation’s operations. Embedded
                            chips are used to control elevators, environmental systems, navigational
                            devices, household appliances, safes, and vaults. The Corporation
                            inventoried its embedded chips and renovated any found noncompliant.
                            As part of the embedded chip project, the Corporation obtained
                            certifications from its service providers.

Data Exchange               The Corporation addressed its obligation to assure that its compliant
                            systems do not become corrupt by data exchanges with noncompliant
                            systems, (e.g., schools, lenders, vendors, and Federal government
                            systems). This was a high priority security issue that the Corporation
                            addressed through firewalls or filters, which simply reject any
                            noncompliant data. The Corporation has approximately 500 data
                            exchange partners. Most of the data exchange partners have already
                            switched to a four-digit year format. As of March 29, 1999, 14 schools
                            and 5 lenders (out of a population of 300 schools and 80 lenders) were
                            still using the two-digit year format. Bridging tools are used to handle
                            data exchange with partners still using the two-digit format. The


                                              Page 6
ED-OIG Management Information Report CN ED-OIG/A05-90044
Review of New York State Higher Education Services Corporation's Year 2000 Readiness

                            Corporation has tested with Sallie Mae, Citibank and Marine Midland,
                            which account for 80 percent of its business.


                            Evaluation of Testing
Test Plans Complied          Vendors provided test plans to the Corporation that complied with the
with Federal                 Federal Financial Institutions Examination Council guidelines for
Financial Institutions       validation testing. According to a Corporation official, the New York
Examination Council          State Banking Department audited the plans and found them
Guidelines                   satisfactory. The official also informed us that the Corporation required
                             user sign-off for all programs prior to moving them into production and
                             it encountered no major problems after the move.

Testing of Loans             The Corporation contracted with ObjectWare to test its Loan System.
System                       ObjectWare performed unit testing, regression testing, system testing,
                             volume testing, and the Corporation performed user acceptance testing.
                             The regression testing included 1999 and 2000 dates. The user
                             acceptance testing included formal sign-off by the Corporation.
                             ObjectWare provided the Corporation with detailed test scripts and
                             results documentation for each program. The Corporation also did its
                             own testing of the Loan System that included testing interfaces between
                             subsystems.

Testing of DMCS              The Corporation contracted with GuaranTec, which in turn
System                       subcontracted with Affiliated Computer Services, Inc., to test its
                             DMCS system. Affiliated Computer Services, Inc., provided a formal
                             test plan and testing methodology to the Corporation. The test plan
                             was designed to test all of the DMCS programs that were modified for
                             Year 2000 as well as all of the date modules modified. The test plan
                             also provided information regarding unit testing, regression testing, and
                             system testing for user acceptance. Testing included target dates in
                             1999 and 2000 and included interfaces with other systems. GuaranTec
                             provided the Corporation with assurances that it successfully tested the
                             DMCS. However, GuaranTec did not provide the detailed testing
                             results.

Testing of PATH and          The Corporation performed coding and unit testing of its PATH
G&S Systems                  system, even though that system was determined not to be mission
                             critical. We did not review testing of the G&S system because that
                             system does not involve Federal funds.




                                             Page 7
ED-OIG Management Information Report CN ED-OIG/A05-90044
Review of New York State Higher Education Services Corporation's Year 2000 Readiness

Independent                  The Corporation has not completed independent verification and
Verification and             validation testing. However, a Corporation official informed us that the
Validation Not               Corporation sent out a Request for Proposal for the work and received
Completed                    23 responses. The Corporation official indicated that it was evaluating
                             the responses and that the independent verification and validation
                             testing is planned. The lack of independent testing is mitigated because
                             the Corporation had independent contractors perform the modifications
                             to the Loan System and DMCS while the Corporation assigned the
                             Data Processing staff to oversee and monitor the project. In addition,
                             the Corporation staff performed user acceptance testing.


                   Evaluation of Contingency Planning
Adequate Planning            Year 2000 contingency planning addresses the steps needed to ensure
Methodology                  the continuity of an agency’s core business processes in the event of a
Developed                    Year 2000-induced system failure. The Corporation initiated its Year
                             2000 planning efforts in July 1997 in response to a directive from
                             Governor George Pataki. The Corporation used guidelines provided
                             by ED, the New York State Banking Department, and the Office for
                             Technology to prepare a comprehensive overall planning document that
                             would comply with all requirements for all three organizations.

Provisions for Data          We evaluated the Corporation’s contingency plan as it existed during
Backup but not for           our site visit. A Corporation official informed us that the Corporation
Computer Processing          completed the plan by June 30, 1999, as intended. During our
Capability                   evaluation we were told the contingency plan did provide for adequate
                             backup of data, but did not provide for an alternate source of computer
                             processing capability to run the data. The Corporation’s only
                             equipment capable of running its large programs, such as the Loan
                             System or DMCS, is the IBM mainframe computer it installed in
                             approximately August 1998 at its Jordan Road facility. According to
                             the Corporation official, the mainframe has been updated with a new
                             Complementary Metal Oxide Substrate unit that is Year 2000
                             compliant.

                             We found the Corporation has sufficient procedures in place to backup
                             data. The Corporation has two Redundant Array of Independent
                             Disks (RAID) boxes used for backup storage. The RAID boxes work
                             in near real-time and together with the mainframe computer serve to
                             form a communications triangle. One RAID box is located at the
                             Jordan Road facility and the other at the Corporation’s Menands
                             location. Corporation officials informed us that the State of New York


                                             Page 8
ED-OIG Management Information Report CN ED-OIG/A05-90044
Review of New York State Higher Education Services Corporation's Year 2000 Readiness

                             is in the process of consolidating its data centers and until it finalizes the
                             consolidation plans the issue of an alternative source of computer
                             processing will remain on hold. Corporation officials agree that they
                             need alternate computer processing capability and are awaiting a
                             decision from the State regarding data consolidation.


                                    Risk Analysis
Risk Analysis Defined        A risk analysis assesses and quantifies uncertainties. With regard to the
                             Year 2000, these inherent uncertainties or risks are date-related events
                             (or non-events) that would have a negative effect on or endanger a core
                             business function or critical system of the organization. The
                             Corporation’s core business function is the FFEL Program.

Development of High          Booz•Allen & Hamilton, GLOS’s technical support contractor,
Impact Risk List             developed a list of high impact risks based on areas identified by (1)
                             individual and overall risk assessments (via telephone interviews), (2)
                             GLOS management, and (3) industry best practices. Booz•Allen &
                             Hamilton organized the resulting list into risk categories and
                             subcategories. We added one subcategory to include service provider
                             certifications. All items listed were identified as high impact risks to
                             both the Corporation and GLOS. We scored each risk category and
                             subcategory using the following scoring system. The scoring ranged
                             from minus (-) to plus (+) (see legend in following table). A minus
                             indicates the Corporation has not taken steps to mitigate the associated
                             risk. A plus indicates the Corporation appears to be successfully
                             mitigating Year 2000 risks. To receive a plus score, the Corporation
                             had to demonstrate actions taken to eliminate or reduce the effect or
                             likelihood of a risk/threat before the time horizon to failure for that
                             subcategory.




                                               Page 9
ED-OIG Management Information Report CN ED-OIG/A05-90044
Review of New York State Higher Education Services Corporation's Year 2000 Readiness

                                HIGH RISK CATEGORIES AND                                      RISK
                                     SUBCATEGORIES                                          MITIGATED

     MANAGEMENT
     Organization/Project Office. Upper management support. Unified message.                    +
     Audit/Quality Assurance of Year 2000 effort in place.                                      +
     Project plan and schedule in place, in use and running as planned. (Sufficient             +
     progress by phase. Little or no slippage. Able to meet March 31, 1999 deadline.)
     TECHNICAL
     Inventory (hardware, software, interfaces, and embedded technology) completed.             +
     Appropriate designation of mission critical systems. FFEL Program systems                  +
     designated as mission critical.
     Renovation approach. Standard methodology - used normal system development life            0
     cycle in approaching Year 2000 project. Renovation decisions based on analysis,
     such as impact studies.
     Testing approach. Evaluation of methods, plans, and results. All levels of testing         0
     addressed: unit, integration, systems, acceptance, and interfaces (true tests versus
     mimic tests). Used adequate testing procedures (regression, performance, stress, and
     forward and backward time). Tested critical Year 2000 dates.
     Data exchange issues resolved.                                                             +
     Formal process of certification of system compliance in place.                             +
     Formal process for obtaining Year 2000 certifications from key service providers.          +
     Contingency planning (Plans are a priority and are in place).                              0
     *Scoring Legend
             -         No risk mitigation activity has occurred.
             -/0       Efforts have been initialized in order to mitigate risks.
             0         Appears to be moderately mitigating risks.
             0/+       Appears to be satisfactorily mitigating risks.
             +         Appears to be successfully mitigating risks.


Areas of Risk                      The following risks were identified by category and evaluated as to the
                                   probability and acceptability of occurrence:

                                   •         Renovation approach: The Corporation determined that its
                                             current DMCS is Year 2000 compliant. However, the
                                             Corporation used the year '10' for windowing which could
                                             cause minor errors with the current DMCS in early 2000 if it
                                             projects a date 10 years into the future. Corporation officials
                                             agreed to look into the windowing issue and that it is a potential
                                             problem should the new DMCS system encounter serious
                                             delays. It is expected that this new system will be implemented
                                             in January or February 2000. We informed the Corporation
                                             officials that if the new system is not ready, they should
                                             determine a “failure date,” which is a date when the windowing
                                             will no longer function as intended.

                                                      Page 10
ED-OIG Management Information Report CN ED-OIG/A05-90044
Review of New York State Higher Education Services Corporation's Year 2000 Readiness


                             •       Testing approach: The Corporation has not completed
                                     independent verification and validation testing. However, the
                                     Corporation has sent out a Request for Proposal and received
                                     23 responses. A Corporation official indicated that it was
                                     evaluating the responses and that the independent verification
                                     and validation testing is planned. The lack of independent
                                     testing is mitigated in that the Corporation had independent
                                     contractors perform modifications to the Loan System and
                                     DMCS while the Corporation assigned Data Processing staff to
                                     oversee and monitor the project. In addition, the Corporation
                                     staff performed user acceptance testing.

                             •       Contingency Planning: We believe that the Corporation’s Year
                                     2000 contingency plan methodology is adequate and it is
                                     making satisfactory progress. However, the Corporation has
                                     not fully developed a contingency plan that covers all Year
                                     2000 issues. While the Corporation has completed most of the
                                     contingency plan, it has not established a plan for a backup
                                     computer to run its systems should the current mainframe fail.
                                     A Corporation official informed us that the State of New York
                                     has control over the system and is in the process of
                                     consolidating its data centers. Until the State makes decisions
                                     regarding the consolidation, the Corporation cannot move
                                     forward and finalize its contingency plans.


                 Conclusion and Recommendation
GLOS Should Monitor          Our evaluation of the Corporation’s Year 2000 readiness indicates that
the Corporation’s            the entity is making satisfactory progress and has completed all phases
Progress                     of its Year 2000 efforts with the exception of the issues identified
                             below. We believe that the Corporation’s Year 2000 efforts are
                             satisfactory because the entity exhibits acceptable performance in all
                             key phases of the Year 2000 project management process. Although
                             the Corporation’s performance as a whole is satisfactory, GLOS
                             should monitor the Corporation to ensure that it: (1) addresses a
                             potential problem associated with its use of the year '10' for windowing
                             in the DMCS, (2) completes independent verification and validation
                             testing, and (3) addresses backup computing capability in its
                             contingency plan.




                                            Page 11
                                                                                         APPENDIX


Background

ED is in the process of ensuring that all of its computer systems and the interfaces between them and
the systems of its trading partners are Year 2000 compliant. Year 2000 compliance (or readiness)
refers to the capability of a product to correctly process, provide, and/or receive data containing dates
from, into, and between the 20th and 21st centuries. A system’s ability to accurately process date and
time data is crucial to continuing a business’ normal operations beyond the turn of the century. Failure
to address this issue could result in erroneous system execution or system failure.

ED issued Dear Colleague Letter 98-G-306 to guaranty agencies to reinforce the seriousness of Year
2000 compliance. It advised guaranty agencies of the potential impact of the Year 2000 problem and
the importance of an aggressive approach to ensure that the FFEL Program will continue unimpaired.
The letter further emphasized meeting the critical milestone dates for each of the five phases set by the
Office of Management and Budget and the General Accounting Office. The designated phases for a
Year 2000 readiness plan are awareness, assessment, renovation, validation, and implementation (with
ongoing contingency planning throughout the entire project).

In July 1998, ED retained Booz•Allen & Hamilton to assess the Year 2000 readiness of the guaranty
agencies. In September 1998, Booz•Allen & Hamilton conducted telephone interviews with all 36
guaranty agencies. The results of those interviews, as well as a determination of the ability of guaranty
agencies to mitigate their Year 2000 risks, were presented to ED. As part of ED’s ongoing efforts to
assure the Year 2000 compliance of guaranty agencies in the FFEL Program, Booz•Allen & Hamilton
subsequently conducted on-site Year 2000 reviews of a number of guaranty agencies selected by
GLOS.

GLOS contracted with Booz•Allen & Hamilton to conduct a second round of the Year 2000 readiness
assessments at select guaranty agencies. The Office of Inspector General supplemented GLOS’
activities to ensure Year 2000 compliance by evaluating the Corporation’s Year 2000 readiness.

Objectives, Scope, and Methodology

We performed our evaluation according to methodology established by the Booz•Allen & Hamilton
Reviewer’s Guide Guaranty Agency Ongoing Year 2000 On-site Readiness Review (6/99). Our
objectives were to assess whether the Corporation: (1) developed adequate management plans to
achieve Year 2000 compliance for its own computer systems and those of its information or data
interface partners, and (2) is monitoring the implementation and achievement of critical milestones for
each phase of the plan. Given the objectives of our review, the team only evaluated the Corporation’s
Year 2000 management plan and any documentation supporting the Corporation’s Year 2000 efforts.
We performed all work in accordance with ED-OIG Policies and Procedures Manual Chapter 2310:
Alternative Services and Products. Therefore, we did not: (1) have a survey phase, (2) perform an
internal controls review, or (3) assess the reliability of any computer processed data.



                                                 Page 1
                                                                                     APPENDIX


We conducted our on-site field work at the Corporation in Albany, New York from June 15 - 22,
1999. On August 10, 1999, we updated certain information. We examined documentation supporting
the Corporation’s progress for each phase of the Year 2000 project and interviewed Corporation
personnel. We did not attempt to complete work that would provide assurance that the Corporation’s
Year 2000 compliance plan will work, only that it was meeting or exceeding milestones.

This Management Information Report is intended to provide information for decision makers and is not
an audit or investigative report. We conducted our review according to government auditing standards
applicable to the limited scope review described.




                                               Page 2
                       REPORT DISTRIBUTION LIST
                    CONTROL NUMBER ED-OIG/A05-90044

Action Official                                                         No. of Copies
Mr. Greg Woods                                                               Original
Chief Operating Officer
Office of Student Financial Assistance
U. S. Department of Education

Other ED Officials
Year 2000 Project Director
Office of the Chief Information Officer                                         1

Barry Morrow, General Manager, Financial Partners, Office of Student            1
Financial Assistance

Director, Office of Public Affairs                                              1

Linda Paulsen, Acting CFO, Office of Student Financial Assistance        Electronic copy

Secretary’s Regional Representative - Region II, New York                       1

ED-OIG Officials
Inspector General                                                        Electronic Copy

Deputy Inspector General                                                 Electronic Copy

Assistant Inspector General for Audit                                    Electronic Copy

Assistant Inspector General for Investigations                           Electronic Copy

Assistant Inspectors General for Operations                            Electronic Copies (2)

Counsel to the Inspector General                                         Electronic Copy
Planning, Analysis, and Management Services                              Electronic Copy

Audit Services                                                                  1

Regional Inspector General for Investigations - Boston                          1

Area Audit Managers
      Atlanta, Dallas, Kansas City, New York, Philadelphia,            Electronic Copies (7)
      Sacramento, and Washington

Region V Audit Office                                                           2
